                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     The Inspector General
                                                     Washington. D.C. 20230



June 28. 20 I0


The Honorable Barbara Mikulski
The Honorable Richard Shelhy
Committee on Appropriations
Subcommittee on Commerce. Justic.:.
       Science and Related Ag.:nci.:s
United States Scnat.:

Dear Madam Chairwoman and Ranking Memh.:r:

The FY 2008 Supplemental Appropriations bill (P.L. 110-252) required the Commerce Office of
Inspector General (OIG) to oversee the 20 10 Decennial Census and provide quarterly status
reports to Congress once the Census Bureau issued its baseline status report.As major field
operations wind down for the decennial. we wanted to summarize for the Subcommittee. our
oversight of the decennial to date.

As described in detail below. our Census O\-ersight teanl produced or contributed to 22 products
in the past two years-including seven quarterly reports and related products to Congress.
testimony at five congressional hearings. two responses to congressional requests. three "flash"
reports on decennial census field operations issues. and five reports that described general
management challenges and findings. In addition. the OIG is scheduled for two Congressional
hearings on the 2010 Decennial Census in the month of July and will be issuing several
additional reports through the end of this calendar year.

We have been reporting on decennial planning over the past decade. However. based on the
support of Congress. we """ere able to increase and accelerate our work considerably in the past
year. culminating in extensive deployments of more than 100 OIG staff members to Census
offices nationwide to oversee multiple decennial Census field operations. observe management
practices. and review infornlation technology systems. OIG staff established a detailed plan to
monitor and systematically collect field observations. We successfully collected data to help
deteffi1ine if activities were being conducted in accordance with Census procedures (for example.
whether the Census questionnaire was being administered properly and whether map and address
list updating was being completed correctly): to examine local Census office practices; and to
conduct a continuous. national-Ie\'el review of decennial census finances. schedule. and risk
assessment and mitigation activities.

OIG's 2010 Decennial Census oversight will also benefit planning lor the 2020 Decennial
Census. Not only did our reports. testimony. and other products serve 10 help keep the Census
Bureau on track during the current decennial. much of the work also sought to provide key
lessons learned and recommendations to help the bureau plan lor the next decennial in 2020. We
intend to continue our oversight through the end of the year. issuing a linal capping report on the
2010 Decennial Census operation early next year.

Quarterly Reporting to Congress
The Supplemental Appropriations Act of 2008 included an explanatory statement that required
the Census Bureau to submit to the Senate and House Comminees on Appropriations a detailed
plan and time line of decennial milestones and expenditures. and a quantitative assessment of
associated program risks. It funher required OIG to provide quarterly reports on the bureau's
progress against this plan. The following are highlights from these repons:

    •	 Augu.1'l2009: Limitations in the Ccnsus Bureau's ability to oversee the systems and
       information necessary for tracking its schedule. cost. and risk management activities
       during the 20 I0 Decennial Census. The OIG subsequently issued a separate report to
       Census with recommendations to help improve the program management of both the
       current and 2020 censuses.
    •	 December 2009: Cost overruns for the address canvassing operation. revisions to cost
       assumptions for the nonresponse follow-up (NRFU) operation. contingency funds for FY
       2010 operations. and spending of American Recovery and Reinvestment Act funds for
       the census: and an update on program-level risks.
    •	   Februw)' 20]0: Development and testing of the bureau's paper-based operations control
         system (PBOCS). an update of OlG field observations. analyses of cost overruns for
         address canvassing. an update on NRFU budgeting. and planned spending of Recovery
         Act funds. The OIG subsequently issued a separate report to Census with
         recommendations for addressing the PBOCS risks and improving cost containment of
         subsequent operations by developing and implementing effective internal controls over
         wage. travel. and training costs.
    •	   May 20]0: The status of PBOCS and its relationship to the success of several decennial
         operations. especially NRFU: the status of the 2010 Census budget and spending of
         Recovery Act funds: and an update on program-level risks. including the development of
         contingency plans and tests of physical security at key Census facilities. The OIG
         subsequently issued a separate report to Census with recommendations for. among other
         things. ensuring the quality of the clerical workarounds implemented to compensate for
         PBOCS shortfalls. improving the transparency of financial reponing. bener informing the
         public of decennial enumeration methods. and developing an improved process to
         estimate the work load for various field operations.

Congres~onaITestimon)'
The OIG also delivered testimony before Senate and House committee hearings in support of the
committees' oversight of the 2010 Decennial Census:

    •	   The 20]0 Census: An Assessmem ()(the Census Bureau's Preparedness. Associate
         Deputy Inspector General. House Committee on Oversight and Government Reform.
         March 25. 20 I0
   •	   The 1010 ('enslls: Gjldale o(Schedllle. ('0.1'1. Risk ManaS!elllenl. and Communications
        Activities. Inspector General. Senate Committee on Homeland Security and
        Governmental AfTairs. February 23. 20 I0
   •	 Censlls lIJIO: llIlpor/ance o(the .\fl/ster Address File and Steps Census Can Take                /0
      StrenS!then lis (jllali/l·. Ins~ctor General. House Committee on Oversight and
      Government Refornl. October 2 I. 200<)
   •	   The 10/0 ('enslls: Gjldale l/(l\ey Decennial Opera/ions. Ins~ctor General. Senate
        Committee on Homeland Security and Governmental Affairs. October 7, 2009
   •	   The 10 I IJ ('enslls (/nd Integnlled ( 'ollllllllnicat;ons (·alllpail-rn. Principal Assistant
        Inspector General for Audit and Evaluation. House Committee on Oversight and
        Government Reform. September 22. 200<)

Congressional Meetings and Responses to Requests
In addition to reporting and testifying before Congress. executives and staff of the Commerce
DIG have met with Members of Congress and congressional staff formally on 16 separate
occasions. DIG staff met with congressional stan' numerous times on an informal basis in
response to specific requests to update and provide oversight summaries related to the 2010
Decennial Census and efforts to improve the 2020 decennial Census. DIG staff have provided
input on legislation in response to congressional requests to identify areas of improvement to the
2020 Decennial Census and briefed. attended meetings. and participated in teleconferences with
congressional staff regarding the status of current decennial operations.

Summary
The decennial census is a once-a-decade event that carries a decade-long cumulative impact on
Congressional representation and lederal agency service. Oversight of the decennial census and
helping ensure that it is carried out properly is. for many on the OIG's staff. a once-in-a-career
opportunity to make an important difference. By promptly alerting Census officials-and the
appropriate Senate and House oversight committees---<lf problems in need of immediate
anention. DIG made an immediate and measurable ditTerence in the 2010 Decennial Census. In
addition. OIG's extensive monitoring. analysis. and reporting provided both Census Bureau and
congressional decision-makers with critical information needed to plan for the next decennial in
2020.We plan to issue our next quarterly report in October 2010 and. as noted above. a capping
report in early 20 I J.

On behalf of the DIG staff. we appreciate the opportunity to serve the American public on such
an important undertaking. and we appreciate your support and that of the Subcomminee.

Sincerely.


1"j}, ­
cc: Secretary ofCommeree
